Elements Financial Credit Card Disclosures
Important Credit Card Disclosures for Elements Financial Cash Rewards Visa, Platinum Visa,
and Signature Rewards Visa credit cards.
The following disclosure represents important details concerning your Elements Financial Visa Cash Rewards, Visa Platinum, or Visa Signature
credit card. The information about costs of the card is accurate as of April 6, 2020. You can contact us toll free at 800-621-2105 or Elements
Financial Federal Credit Union, P.O. Box 7123, Indianapolis, IN 46207-7123 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES
Cash Rewards Visa

Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

APR for Cash Advances

Platinum Visa

Signature Rewards Visa

0% Introductory APR for six

0% Introductory APR for six

0% Introductory APR for six

months.

months.

months.

After that, your standard APR will

After that, your standard APR will

After that, your standard APR will

be 12.99%.

be 8.99%.

be 10.99%.

This APR will vary with the market
based on the Prime Rate.

This APR will vary with the market
based on the Prime Rate.

This APR will vary with the market
based on the Prime Rate.

15.99% This APR will vary with

15.99% This APR will vary with

15.99% This APR will vary with

the market based on the Prime
Rate.

the market based on the Prime
Rate.

the market based on the Prime
Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on
purchases and balance transfers if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances on the date the cash advance is posted to your account.

Minimum Interest
Charge

None

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website for the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Cash Rewards Visa
Fees to Open or
Maintain Your Account

Transaction Fees

Penalty Fees

Platinum Visa

Signature Rewards Visa

Annual Fee: None
Application Fee: None
Balance Transfer: None

Balance Transfer: None

Balance Transfer: None

Cash Advance: Up to 3% for each
Cash Advance or a minimum of
$5.00.

Cash Advance: Up to 3% for each
Cash Advance or a minimum of
$5.00.

Cash Advance: Up to 3% for each
Cash Advance or a minimum of
$5.00.

Wire Transfer: Up to 3% for each
wire transfer or a minimum of
$5.00.

Wire Transfer: Up to 3% for each
wire transfer or a minimum of
$5.00.

Wire Transfer: Up to 3% for each
wire transfer or a minimum of
$5.00.

International Transaction: 1.0% of
each transaction in U.S. dollars.

International Transaction: 1.0% of
each transaction in U.S. dollars.

Late Payment: Up to $25.00 if your
payment is late.

Late Payment: None

Late Payment: Up to $25.00 if your
payment is late.

Over the Credit Limit: None

Over the Credit Limit: None

Over the Credit Limit: None

Returned Payment: Up to $25.00 if
your payment is returned for any
reason.

Returned Payment: Up to $25.00 if
your payment is returned for any
reason.

Returned Payment: Up to $25.00 if
your payment is returned for any
reason.

How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a late payment.

Important Credit Card Disclosures for Indianapolis Indians Signature Rewards Visa or
Indianapolis Indians Rewards Visa credit cards.
The following disclosure represents important details concerning your Indianapolis Indians Signature Rewards Visa or Indianapolis Indians
Rewards credit card. The information about costs of the card is accurate as of April 6, 2020. You can contact us toll free at 800-621-2105 or
Elements Financial Federal Credit Union, P.O. Box 7123, Indianapolis, IN 46207-7123 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES
Indianapolis Indians Signature Rewards Visa

Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

APR for Cash Advances

Indianapolis Indians Rewards Visa

0% Introductory APR for six months.

0% Introductory APR for six months.

After that, your standard APR will be 10.99%.

After that, your standard APR will be 12.99%.

This APR will vary with the market based on the Prime
Rate.

This APR will vary with the market based on the Prime
Rate.

15.99% This APR will vary with the market based on 15.99% This APR will vary with the market based on
the Prime Rate.

the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on
purchases and balance transfers if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances on the date the cash advance is posted to your account.

Minimum Interest
Charge

None

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website for the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Indianapolis Indians Signature Rewards Visa
Fees to Open or
Maintain Your Account

Transaction Fees

Penalty Fees

Indianapolis Indians Rewards Visa

Annual Fee: None
Application Fee: None
Balance Transfer: None

Balance Transfer: None

Cash Advance: Up to 3% for each Cash Advance or a
minimum of $5.00.

Cash Advance: Up to 3% for each Cash Advance or a
minimum of $5.00.

Wire Transfer: Up to 3% for each wire transfer or a
minimum of $5.00.

Wire Transfer: Up to 3% for each wire transfer or a
minimum of $5.00.

International Transaction: None

International Transaction: 1.0% of each transaction in
U.S. dollars.

Late Payment: Up to $25.00 if your payment is late.

Late Payment: Up to $25.00 if your payment is late.

Over the Credit Limit: None

Over the Credit Limit: None

Returned Payment: Up to $25.00 if your payment is
returned for any reason.

Returned Payment: Up to $25.00 if your payment is
returned for any reason.

How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a late payment.

Important Credit Card Disclosures for Butler University Rewards Visa credit card.
The following disclosure represents important details concerning your Butler University Rewards Visa credit card. The information about costs
of the card is accurate as of April 6, 2020. You can contact us toll free at 800-621-2105 or Elements Financial Federal Credit Union, P.O. Box
7123, Indianapolis, IN 46207-7123 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES
Butler University Rewards Visa

Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

0% Introductory APR for six months.
After that, your standard APR will be 12.99%.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

15.99% This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on
purchases and balance transfers if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances on the date the cash advance is posted to your account.

Minimum Interest
Charge

None

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website for the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Fees to Open or
Maintain Your Account

Annual Fee: None
Application Fee: None
Balance Transfer: None
Cash Advance: Up to 3% for each Cash Advance or a minimum of $5.00.

Transaction Fees

Wire Transfer: Up to 3% for each wire transfer or a minimum of $5.00.
International Transaction: None
Late Payment: Up to $25.00 if your payment is late.

Penalty Fees

Over the Credit Limit: None
Returned Payment: Up to $25.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a late payment.

Important Credit Card Disclosures for Riley Children’s Foundation Visa credit card.
The following disclosure represents important details concerning your Riley Children’s Foundation Visa credit card. The information about costs
of the card is accurate as of April 6, 2020. You can contact us toll free at 800-621-2105 or Elements Financial Federal Credit Union, P.O. Box
7123, Indianapolis, IN 46207-7123 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES
Riley Children’s Foundation Visa

Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

0% Introductory APR for six months.
After that, your standard APR will be 8.99%.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

8.99% This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on
purchases and balance transfers if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances on the date the cash advance is posted to your account.

Minimum Interest
Charge

None

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website for the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Fees to Open or
Maintain Your Account

Annual Fee: None
Application Fee: None
Balance Transfer: Up to 1% for each Cash Advance or a minimum of $5.00.
Cash Advance: Up to 3% for each Cash Advance or a minimum of $5.00.

Transaction Fees

Wire Transfer: Up to 3% for each wire transfer or a minimum of $5.00.
International Transaction: 1.0% of each transaction in U.S. dollars.
Late Payment: Up to $25.00 if your payment is late.

Penalty Fees

Over the Credit Limit: None
Returned Payment: Up to $25.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a late payment.

Important Credit Card Disclosures for Elements Financial Secured Visa credit card.
The following disclosure represents important details concerning your Elements Financial Secured Visa credit card. The information about costs
of the card is accurate as of April 6, 2020. You can contact us toll free at 800-621-2105 or Elements Financial Federal Credit Union, P.O. Box
7123, Indianapolis, IN 46207-7123 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES
Elements Financial Secured Visa
Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

12.99% This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

15.99% This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on
purchases and balance transfers if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances on the date the cash advance is posted to your account.

Minimum Interest
Charge

None

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website for the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Fees to Open or
Maintain Your Account

Annual Fee: None
Application Fee: None
Balance Transfer: Up to 1% for each Cash Advance or a minimum of $5.00.
Cash Advance: Up to 3% for each Cash Advance or a minimum of $5.00.

Transaction Fees

Wire Transfer: Up to 3% for each wire transfer or a minimum of $5.00.
International Transaction: 1.0% of each transaction in U.S. dollars.
Late Payment: Up to $25.00 if your payment is late.

Penalty Fees

Over the Credit Limit: None
Returned Payment: Up to $25.00 if your payment is returned for any reason.

An Elements Financial Savings account is a requirement of the Secured Visa Card. At least 100% of the approved credit line amount must
remain on deposit in an Elements personal Savings Account (Secured Bank Account). The deposit requirement ranges from a minimum of
$500 to a maximum of $5,000, based upon approved credit line amount. The Secured Visa Card is a non-rewards card.
How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."

